OIG Investigative Reports Press Release Albany, GA., 01/14/2013 - Dontreal Jenkins and Trevayne Jones Convicted of Embezzlement of Government Property and Aggravated Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRCIT OF GEORGIA
NEWS
Dontreal Jenkins and Trevayne Jones Convicted of Embezzlement of Government Property and Aggravated Identity Theft
FOR IMMEDIATE RELEASE
January 14, 2013
Michael J. Moore, United States Attorney for the Middle District of Georgia, announced that on January 11, 2013, a federal jury in Albany, Georgia, convicted defendants Dontreal M. Jenkins, and Trevayne D. Jones, both of Albany, Georgia, on Counts 1 through 5 of a superseding indictment on the following charges:  Conspiracy to Embezzle Public Monies, United States Treasury checks in the amount of $700,000, Counts 2 and 4, Embezzlement of Government Property, and Counts 3 & 5,  and Aggravated Identity Theft.
From about January 28, 2011, and continuing through on or about May 12, 2011, Jenkins and Jones, acting with others in a conspiracy to embezzle public monies, stole and cashed United States Treasury checks using, without lawful authority, the names and signatures of the intended payees.  The jury further found Jones guilty on an additional count of misleading statements to law enforcement in connection with the embezzlement offense.  Jenkins was convicted on an additional count of conspiracy to commit mail and wire fraud in connection with a scheme in which he participated to obtain student loan monies by fraud from the United States Department of Education.
The defendants face a maximum penalty of ten years per count as to each act of embezzlement, a $250,000 fine, and supervised release.  Sentencing will be scheduled before Judge W. Louis Sands, United States District Judge for the Middle District of Georgia at a later date.
This theft of United States Treasury checks case was investigated by the United States Secret Service and the United States Department of Education Office of Inspector General investigated the student loan fraud.   Assistant United States Attorney Jim Crane handled the prosecution.
For additional information, please contact Sue McKinney at the U.S. Attorney's Office, at 478-621-2602.
Top
Printable view
Last Modified: 03/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov